a

igisg ^ t?

■Hi!!
J14
Supreme Court, U.S.
FILED

IN THE

MAR 2 6 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLE^K

— PETITIONER
(Your Name)
vs.
/

t/oAAS <f,

(V'f

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Cj^o/IT Of A??6fb$

¥o*-rtf€- /JttfTtf CuLCOiT-

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

J^SuS

Me/U/J

(Your Name)

A S'PC- fioiZeAJCS-

?0 7>ox s~ooa
(Address)

^LofterXce, Ax< zoma
(City, State, Zip Code)

(Phone Number)

;o7srg£>

QUESTIONS PRESENTED

1. This is a question of first impression since AEDPA. When a
lawyer fails to give the State Courts, the opportunity to review
federal claims, this failure is the proximate cause of the injury
as a matter of law, because that review shall never be granted
ever. (App. 53-63)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 1 of 14

LIST OF PARTIES

[t^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

l/s
firrofaJep'

vp A 2.
VorJ^&'J ~T'S

OSCA 9* fa Ad- Jo

Q.c. aJp. Lf:iy- C\/-o0/?3~^e-

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

TABLE OF CONTENTS

2

TABLE OF AUTHORITIES

3

TABLE OF APPENDIX

4

STATEMENT OF THE CASE

5

JURISDICTION

6

REASONS FOR THIS PETITION

7

WHEN A LAWYER FAILS TO COMPLY WITH THE INTENT OF AEDPA BY FAILING TO ALLOW STATE COURTS THE
OPPORTUNITY TO DECIDE ON FEDERAL CLAIMS, THAT FAILURE IS PROXIMATE CAUSE OF THE INJURY BECAUSE
THOSE CLAIMS, WILL NEVER BE REVIEWED............................. ...............................................,.................................. 7
FACTS PERTINENT TO CONSIDERATION OF THIS PETITION
CONCLUSION

8
14

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 2 of 14

TABLE OF AUTHORITIES
Cases

City of Canton v. Harris, 489 U.S. 378, 385 (1989)--8
Oklahoma City v. Tuttle, 71 U.S. 808, 824-25 (1985)
—8
People v. Victor, 149 A.D.2d 363, 363-64; 540 N.Y.S.2d 670, 670 (1st Dep't), affd as modified by
74 N.Y.2d 874, 547 N.Y.S.2d 831 (1989) (defendant Lamont Victor aka Victor Townes, aka
Victor Lamont).------------------- --------------------------------------------------------------------10
Townes v. City of New York 176 F.3d 138 (2d Cir.), cert, denied, 528 U.S. 964 (1999).
9
Townes v. City of New York, No. 94 Civ. 2647, 1998 U.S Dist. LEXIS 2739, at *1 (S.D.N.Y. Mar. 6,
1998), rev'd in part by 176 F.3d 138.
10

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 3 of 14

TABLE OF APPENDIX

1.February 10, 2021 order denying rehearing 20-16146
2. November 23, 2020 order denying CO A
4 Doc 76 denying motion to vacate
8

Judgment on habeas doc 72

9 Doc 71 order denying habeas
31 Doc 40 order granting motion to vacate
42 Order dismissing habeas
50 Order denying rehearing
51 Memorandum decision
53 Rule 59 motion denied
55 Judgment
56 Summary judgment
64 Mandate
65 PCR dismissal
66 Letter from counsel
68 State bar letters
73 Inter American Commission on Human Rights Report

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 4 of 14

JURISDICTION

8. The Ninth Circuit decisions are unpublished, issued November
23, 2020 and December 9, 2020 and marked EX 2 and 51.
9. The order denying timely petitions for rehearing are marked EX
1 and 50 and were issued April 5, 2021
10.

and are unpublished.

28 U.S.C. 1254 (1) confers jurisdiction.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 6 of 14

STATEMENT OF THE CASE
2. After a jury trial Petitioner was convicted and sought PCR relief
once his direct appeals were exhausted. ( App. 4 to 49)
3. PCR counsel did not seek review of the trial court’s decision and
lied to Petitioner and his family, stating he sought review. (App.
37-40)
4. Even though the Arizona Court of Appeals directed counsel to
ask the trial court or leave to file a delayed petition, counsel
failed to do so, thereby denying Arizona courts the opportunity
to rule on the federal claims. (App. 64-65)
5. Petitioner filed a diversity claim for malpractice against PCR
counsel and also claims with the State Bar (App. 68-70)
6. The trial court found that the failure of trial counsel to afford
Arizona Courts the opportunity was not the proximate cause of
his injury. (App. 53-63) which the Ninth Circuit upheld on
appeal. (App.51-52)
7. A timely petition for rehearing was filed and denied. (App. 50)

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 5 of 14

REASONS FOR THIS PETITION

WHEN A LAWYER FAILS TO COMPLY WITH THE
INTENT OF AEDPA BY FAILING TO ALLOW STATE COURTS
THE OPPORTUNITY TO DECIDE ON FEDERAL CLAIMS, THAT
FAILURE IS PROXIMATE CAUSE OF THE INJURY BECAUSE
THOSE CLAIMS, WILL NEVER BE REVIEWED.

This proceeding involves the following question of exceptional
importance due to the mandatory provisions of AEDPA:
*[fl When a lawyer fails to exhaust state remedies, thereby, failing to
give state courts the opportunity to review federal claims, raised in
the PCR proceedings, that failure is the proximate cause of injury as
a matter of law.
|2 As the primary responsibility for substantive review now rests
with the state courts, the need for federal oversight of the procedures
is heightened, when counsel fail to give state courts that opportunity
to review federal claims, and that failure to give that opportunity for
review, is proximate course.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 7 of 14

FACTS PERTINENT TO CONSIDERATION OF THIS PETITION
|3.The Magistrate Judge correctly found in her decision that counsel
representing Petitioner

in the state PCR proceedings, lied to

Petitioner and his wife, when he told them that he sought review by
the Arizona Court of Appeals, of the decision of the trial court. (App ^
-33) 1 (EX A)
Tf4. The trial court granted counsel until April 11, 2014 to seek
review. However counsel2 in violation of Arizona Rules filed a second
request with the Appellate Court. On April 15, 2014 the Appellate
court dismissed the Petition as being untimely. It however in plain
language granted Petitioner leave to file the request with the trial
court. Counsel failed to comply with the directives and ask the trial

i

Application for Certificate of Appealability and paragraph therein.

2 Counsel is an experienced criminal defense lawyer in Arizona and
knew based on his wealth of experience, that in Arizona motion to file
a delayed Petition must be filed with the trial court and is routinely
granted.
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 8 of 14

court to seek review. (App If 31)
Tf4. As a consequence, the Arizona Appellate Courts failed to provide
the liberal review contemplated by Arizona law. They were not
afforded the opportunity to review claims as to ineffective assistance,
failure to investigate, failure to dismiss for pre indictment delay,
motion to suppress statements, motions as to loss of evidence, relief
for juror misconduct (Doc .71 pp 6 Para 20 to page 17 line 11).
Attached is the draft habeas in which the entire arguments were laid
down by Petitioner.)(EX B)
Tf5 Petitioner filed a claim for legal malpractice and the District Court
held that counsel’s failure to afford Arizona Courts to review the
federal claims was not the proximate cause of the injury.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 9 of 14

ARGUMENTS WHY THE PETITION SHOULD BE GRANTED
^6 "Proximate cause," is also known "causal connection." In addition
with other language like "direct causal connection" or "affirmative
link"3.
If5. The differences in the way causation is characterized, from
decision to decision, might simply be attributed to the use of different
language by the Court. Still, it remains somewhat of an unsettled
question as to whether the causation requirement in

situations

where counsel has failed to afford state courts the opportunity to
conduct that review authorized by AEDPA, is intended to be precisely
the same as the proximate cause requirement that is used for
common law tort cases.

3 City of Canton v. Harris, 489 U.S. 378, 385 (1989) (requiring a direct
causal link between conduct and the alleged violation); Oklahoma
City v. Tuttle, 71 U.S. 808, 824-25 (1985) (requiring an "affirmative
link" between conduct and violation).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 10 of 14

Tf6. The element of causation poses very sticky questions in prisoner
malpractice cases since AEDPA because of the mandatory provisions
of AEDPA and liberal state standards of review.
\7.

The Second Circuit's decision in Townes v. City of New York 4is'

instructive.

The result in Townes is, perhaps, controversial. The

plaintiff, Townes, was a passenger in a taxi. The taxicab was stopped
by a police officer, who searched Townes and uncovered evidence of a
crime.

In the state court criminal proceeding, Townes' attorney

moved to suppress the evidence, claiming that the search violated the
Fourth Amendment. The motion to suppress was denied, and Townes
was

convicted and incarcerated.

Subsequently, the Appellate

Division, First Department, overturned the conviction finding that
the search violated the Fourth Amendment, and the motion to
suppress should have been granted. 5

18.

So what did Townes do next? He brought suit in federal court

under Section 1983, claiming that his Fourth Amendment rights

4 Townes v. City of New York 176 F.3d 138 (2d Cir.), cert, denied, 528
U.S. 964 (1999).
5 People v. Victor, 149 A.D.2d 363, 363-64; 540 N.Y.S.2d 670, 670 (1*
Dep't), affd as modified by 74 N.Y.2d 874, 547 N.Y.S.2d 831 (1989)
(defendant Lamont Victor aka Victor Townes, aka Victor Lamont).
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 11 of 14

were violated. 6 Here is where it gets interesting. Townes did not seek
damages for the unconstitutional search itself, but sought damages
for what he claimed was an

unconstitutional conviction and

incarceration.
Tf9 On appeal, the Second Circuit Court of Appeals agreed that the
search violated the Fourth Amendment, but held that there was a
lack of sufficient causation between the unconstitutional search, on
the one hand, and the conviction and incarceration, on the other.
110 In describing the lack of causation, the Second Circuit used the
phrase "gross disconnect" to say that the chain of causation between
the stop and the search and claimed unconstitutional conviction and
sentence was too remote.
111 There is another way to look at Townes' claim, however. The state
trial court's decision to deny the motion to suppress, which turned
out to be an erroneous denial of the motion to suppress, could be
thought of as being an intervening cause that was not reasonably
foreseeable. In other words, the action by the state criminal trial
judge, in denying the motion to suppress, was an intervening cause
6Townes v. City of New York, No. 94 Civ. 2647, 1998 U.S Dist. LEXIS
2739, at *1 (S.D.N.Y. Mar. 6, 1998), rev'd in part by 176 F.3d 138.
530.
PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 12 of 14

that broke the chain of causation between unconstitutional search
and the conviction and incarceration.
H12. One of the curiosities about the case is why the plaintiff did not
simply seek damages for the unconstitutional search.
113. Unlike Townes’ this Petitioner cannot go back to Arizona State
courts and ask them to review these federal claim due to waiver and
preclusion. For now and forever, his state claims are waived.
14. The exclusive remedy available is legal malpractice by counsel.

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 13 of 14

CONCLUSION

Tf l5. The court should grant the petition and remand the matter for
a trial on the merits. This lawyer is very well known in Arizona, and
as the settlement conference Magistrate Judge stated, he plays golf
with everyone.
16. The fact that he plays golf with everyone does not excuse his
failure.
If 17.. AEDPA mandates lawyers provide the review.

Respectfully submitted, T/'/'J 7

y <2®*?!

Jl &Sx)J cM•
Petitioner

c/Mg&4aJ

PETITION FOR A WRIT OF CERTIORARI TO THE NINTH CIRCUIT Page 14 of 14

